Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




     Beneficiary Awareness of Medicare Fraud
                   A Follow-up




                        JANET REHNQUIST
                       Inspector General

                          NOVEMBER 2001
                          OEI-09-00-00590
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco Regional office prepared this report under the direction of Paul A. Gottlober,
Regional Inspector General. Principal OEI staff included:

REGION IX                                               HEADQUARTERS

Pamela Minniear, Project Leader                         Rada Spencer, Program Specialist

Robert Gibbons, Program Analyst

Camille Harper, Program Analyst

Christopher Tarbell, Program Analyst


We would like to acknowledge the following OEI staff for their assistance in this project:

Natasha Besch, Region II
                               Norman Han, Region I

Timothy Brady, Region IX 
                              Russ Hereford, Region I

Cheryl Dotts, Region IX
                                Steve Keenan, Region I

Tanaz Dutia, Region III
                                John Molnar, Region II

China Eng, Region I
                                    Gerius Patterson, Region IV

Tina Fuchs, HQ
                                         Elander Phillips, Region VII

Nicole Gillette, Region II
                             Thomas Purvis, Region IX

Aimee Golbitz, Region I
                                Barbie Robinson, Region IX

Chris Gould, Region I
                                  Marco Villagrana, Region V

Joyce Greenleaf, Region I 
                             Kristy Williams, Region IV

Vincent Greiber, Region II
                             Steven Zerebecki, Region IX

Erin Guay, Region V
                                    Thomas Zimmermann, Region II


    To obtain copies of this report, please call the San Francisco Regional Office at (415) 437-7900.
             Reports are also available on the World Wide Web at our home page address:

                                      http://www.hhs.gov/oig/oei/
                      EXECUTIVE SUMMARY

PURPOSE

        To assess Medicare beneficiary knowledge and awareness of Medicare fraud and the
        impact of the Department of Health and Human Services’ outreach initiatives.


BACKGROUND

        In 1998, the Office of Inspector General (OIG) surveyed Medicare beneficiaries about
        their knowledge and awareness of Medicare fraud. The OIG found that beneficiaries
        believed that Medicare fraud was common, and it was their personal responsibility to
        report suspected cases of Medicare fraud. Most beneficiaries said that they read their
        Medicare statements but had not received information on Medicare fraud. Beneficiaries
        said that recognizing fraud was difficult. Most were neither aware of agencies that were
        working to stop Medicare fraud nor were they aware of the OIG’s fraud hotline.

        In 1999, the OIG outreach partners launched a nationwide campaign to educate
        beneficiaries about Medicare fraud. The campaign set forth a three-step process for
        beneficiaries to follow if they suspected Medicare fraud. Beneficiaries were told that, as a
        first step, they should clarify unusual Medicare charges with their health care provider. If
        questions remained, beneficiaries were advised to contact their Medicare insurance
        company. If they remained dissatisfied and suspected fraud, they were told to call the
        OIG hotline.

        Out of a random sample of 1,498, we completed surveys with 543 Medicare beneficiaries
        for a 36 percent response rate. We compared their responses to data in the 1998 OIG
        report. We also interviewed the OIG outreach partners.


FINDINGS

        Beneficiary knowledge of Medicare fraud has increased since 1998. Beneficiary
        knowledge of Medicare fraud has increased 15 percentage points in the past 3 years.

        Twenty-four percent of beneficiaries are aware of efforts to reduce fraud.
        Beneficiaries are aware of groups both inside and outside the federal government who are
        involved in efforts to reduce fraud.

        Most beneficiaries are still not aware that there is a toll-free number to report
        Medicare fraud. In 1998, 86 percent of beneficiaries were not aware of the toll-free
        hotline for reporting Medicare fraud. In 2001, 85 percent of beneficiaries remain

Beneficiary Awareness of Fraud                                                        OEI-09-00-00590
                                                  i
        unaware of the hotline, despite the fact that the toll-free number appears on their claim
        statements which most of them read.

        Younger, urban beneficiaries are more likely to recall receiving information on
        Medicare fraud. Beneficiaries who live in rural areas and beneficiaries who are more
        than 75 years old reported receiving less information.

        Beneficiaries who receive information are more likely to know whom to contact if
        they encounter Medicare fraud. Of beneficiaries who receive information on Medicare
        fraud, only 14 percent would not know whom to call if they encountered fraud.

        Despite receiving more information on fraud, key beneficiary attitudes have not
        changed. Beneficiaries are still not optimistic about efforts to eliminate fraud. Almost 50
        percent do not believe that Medicare fraud is easy to recognize.

        Almost one-half of the beneficiaries who think they have experienced Medicare
        fraud reported it. As a first step, beneficiaries who suspect fraud most frequently
        contact their health care provider for clarification.

        Most beneficiaries regularly read their claim statements. As in the 1998 survey, the
        vast majority of beneficiaries report that they always read their claim statements. Those
        with poor vision, limited English skills, and lower incomes are less likely to read their
        statements.


CONCLUSION

        Outreach activities which are designed to educate beneficiaries about Medicare fraud are
        meeting most of their goals. Beneficiaries in 2001 are more knowledgeable about
        Medicare fraud and are significantly more likely to receive information about fraud than
        they were 3 years ago. Further, beneficiaries are reporting suspected fraud using an
        approach consistent with the three-step process outlined in the “Who Pays? You
        Pay.”campaign.




Beneficiary Awareness of Fraud                                                        OEI-09-00-00590
                                                  ii
                            TABLE OF CONTENTS

                                                                                                                             PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Awareness of Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Receiving Information on Medicare Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Encountering and Reporting Potential Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Attitudes and Behaviors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES


          A: Baseline Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          B: Confidence Intervals for Selected Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          C: Analysis of Respondents versus Non-Respondents . . . . . . . . . . . . . . . . . . . . . . . . . 17





Beneficiary Awareness of Fraud                                                                                     OEI-09-00-00590
                                                                  iii
                                                                  iii

                                 INTRODUCTION

PURPOSE

        To assess Medicare beneficiary knowledge and awareness of Medicare fraud and the
        impact of the Department of Health and Human Services’ outreach initiatives.


BACKGROUND

        Addressing Medicare fraud is an important issue within the Department of Health and
        Human Services (HHS). Medicare is vulnerable to fraud because of the large
        expenditures and administrative complexity of the program. Recent legislation, HHS
        initiatives, and educational outreach efforts all have attempted to address and eliminate
        fraud.

        Studies have shown that Medicare beneficiaries need more education about fraud. In a
        previous Office of Inspector General (OIG) report (Beneficiary Awareness of Fraud,
        OEI-12-97-00440), we found that only 23 percent of beneficiaries were knowledgeable
        about Medicare fraud and very few received information about it. Recent health surveys
        found that consumers believe that health care fraud is rampant, but they do not know how
        they can prevent it.1

        This report addresses current Medicare enrollees’ level of awareness of Medicare fraud
        and compares it to previous levels which we reported in our 1998 report. We also
        assessed the effects of the HHS educational outreach activities, specifically the “Who
        Pays? You Pay.” campaign.

Recent Legislative Initiatives

        In recent years, Congress enacted a number of laws to assist in the fight against health
        care fraud and abuse. The 1996 Health Insurance Portability and Accountability Act
        (P. L. 104-191), also known as HIPAA, contains several provisions designed to address
        Medicare fraud and abuse. One provision created the Health Care Fraud and Abuse
        Control Program which mandates the coordination of health care law enforcement at all
        levels, established a dedicated stream of funding for fighting fraud and abuse, and
        provided for the education of the health care industry on fraudulent health care practices.
        Two other provisions in HIPAA are the Medicare Integrity Program and the Incentive
        Program for Fraud and Abuse Information. These provisions allow HHS to contract with
        eligible entities to promote program integrity.


        1
       American Association of Retired Persons, “America Speaks Out on Health Care Fraud,”
consumer surveys for 1996, 1998, and 2000.

Beneficiary Awareness of Fraud                                                        OEI-09-00-00590
                                                  1
        The Omnibus Consolidated Appropriations Act of 1997 (P. L. 104-208) directs the
        Administration on Aging to establish demonstration projects that use the skills of retired
        professionals to help prevent Medicare fraud and abuse. These demonstration projects,
        commonly referred to as Harkin Grants, fund Health Care Anti-Fraud and Abuse
        Community Volunteer Projects which assist with the recruitment and training of
        volunteers and the implementation of community education activities.

        The Balanced Budget Act of 1997 (P. L. 105-33) includes several provisions to strengthen
        anti-fraud and abuse efforts and to improve Medicare program integrity. Among other
        things, the Act requires the Health Care Financing Administration - now known as the
        Centers for Medicare & Medicaid Services (CMS) - to issue an annual notice to
        beneficiaries that:

        C        encourages beneficiaries to check their Medicare statements carefully for accuracy
                 and report any errors by calling the OIG toll-free telephone number,
        C        informs beneficiaries of their right to request an itemized statement for Medicare
                 items and services, and
        C        describes the program established under HIPAA to collect information on
                 Medicare fraud and abuse.

                 Moreover, effective January 1, 1998, the Balanced Budget Act of 1997 requires
                 that all Medicare claim statements include the OIG toll-free telephone number for
                 reporting information about waste, fraud, and abuse.

HHS Efforts to Address Health Care Fraud

        In 1996, HHS launched a nationwide educational outreach initiative to help reduce the
        incidence of fraud and abuse in Medicare. This initiative evolved into a public-private
        partnership among five groups: the Administration on Aging, the Department of Justice,
        the CMS, the American Association of Retired Persons (AARP), and the OIG. Activities
        included conducting a nationwide outreach campaign to educate beneficiaries and others
        about Medicare fraud and abuse, establishing a more user-friendly OIG hotline, and
        increasing collaboration with other agencies and organizations involved in fighting
        Medicare fraud.

        In February 1999, the outreach partners launched a nationwide campaign to educate,
        inform, and advise millions of Medicare beneficiaries about Medicare fraud and abuse.
        "Who Pays? You Pay." campaign materials set forth a three-step process for beneficiaries
        to follow if they suspect Medicare fraud. First, beneficiaries were told that they should
        clarify unusual or questionable Medicare charges with their health care provider. Second,
        if questions remained, the beneficiaries were directed to contact their Medicare insurance
        company. As a last resort, if beneficiaries were still dissatisfied and suspected fraud, they
        were directed to call the OIG hotline. As part of the campaign, the partners developed a
        televised public service announcement featuring a dripping faucet which represented
        Medicare money that was being lost due to fraud, waste, and abuse.


Beneficiary Awareness of Fraud                                                         OEI-09-00-00590
                                                  2
        The launch of the campaign incorporated a single-day training event attended by
        approximately 10,000 Medicare beneficiaries nationwide. Thirty-one cities held a press
        conference with five interactive sites. Medicare beneficiaries convened in cinemas, AARP
        Regional Offices, university auditoriums, and other locations in major metropolitan areas
        to view a national training program to learn how to detect Medicare fraud.

AARP Studies on Health Care Fraud and Abuse

        The AARP has conducted three consumer telephone surveys in the last 5 years that were
        designed to assess public attitudes toward health care fraud. The 1996, 1998, and 2000
        consumer surveys measured Americans’ understanding of and personal experiences with
        health care fraud and abuse. Although the majority of respondents to all surveys believed
        that fraud was widespread in the health care industry, the prevalence of this attitude
        appears to be declining. In 1996, 93 percent of respondents reported that health care
        fraud was either somewhat or extremely widespread. Approximately 83 percent believed
        this in 1998 and 78 percent in 2000.

Previous Office of Inspector General Study

        In 1998, the OIG published the results of a survey of Medicare beneficiaries which
        assessed their knowledge and awareness of Medicare fraud. According to the survey:

        C        more than half of the beneficiaries believed that Medicare fraud was common;
        C        ninety-four percent believed that it was their personal responsibility to report
                 suspected cases of Medicare fraud;
        C        seventy-four percent of beneficiaries “always” read their Medicare statements;
        C        most beneficiaries believed that recognizing fraud was difficult, and most have
                 never received information on Medicare fraud; and
        C        most respondents were not aware of agencies working to stop Medicare fraud nor
                 of the OIG’s toll-free number.


METHODOLOGY

        To achieve the objectives of our study, we compared beneficiaries’ current knowledge and
        attitudes about Medicare fraud in 2001 to baseline data in our 1998 report. To ensure
        comparability with the baseline data, we duplicated, as closely as possible, the
        methodology used in the previous study.

        We selected a simple random sample of 1,500 Medicare beneficiaries from CMS’s national
        enrollment database, as of October 28, 2000. Two of the beneficiaries in our sample died
        prior to October 28, 2000, but their names had not been removed from the enrollment
        database. We omitted these beneficiaries from our sample, which reduced the




Beneficiary Awareness of Fraud                                                      OEI-09-00-00590
                                                 3
        size to 1,498. Our sample included beneficiaries enrolled in both Medicare fee-for-service

        and managed care plans.2


        We modified the telephone survey instrument used in our 1998 evaluation to eliminate

        questions that were not relevant to the follow-up effort, and added others about the “Who

        Pays? You Pay.” campaign. We used two methods for collecting data from the

        beneficiaries in our study. First, we obtained telephone numbers for 59 percent of the

        1,498 beneficiaries in our sample. We attempted to conduct telephone surveys with the

        890 beneficiaries for whom we had telephone numbers. Secondly, some of the

        beneficiaries that we spoke with by telephone expressed a preference to receive the survey

        by mail. For those beneficiaries, as well as some others that we were unable to reach by

        telephone, we designed and mailed written surveys. In total, we mailed 

        118 surveys. 


        A total of 543 beneficiaries responded to our survey. We were able to complete telephone

        surveys with 485 respondents. Of the 118 mailed surveys, 58 were completed and

        returned. Of those beneficiaries for whom we obtained telephone numbers, 

        61 percent responded (543 out of 890). Overall, our response rate was 36 percent 

        (543 out of 1,498). We completed data collection during March - May, 2001.


        We also interviewed the campaign partners for background information.


        Our review was conducted in accordance with the Quality Standards for Inspections

        issued by the President’s Council on Integrity and Efficiency.





        2
          Beneficiaries who completed our survey “self-selected” the type of Medicare insurance in which
they were enrolled. Survey respondents answered a few screening questions to guide them in their
selection. The categories were fee-for-service or managed care. We did not distinguish among the various
types of non-traditional Medicare insurance, such as Medicare+Choice or preferred provider organizations.

Beneficiary Awareness of Fraud                                                            OEI-09-00-00590
                                                   4
                                       FINDINGS

AWARENESS OF FRAUD
Beneficiary knowledge of Medicare fraud has increased since 1998

        Since 1998, beneficiary knowledge3 of Medicare fraud has increased 15 percentage points.
        We found that 38 percent of beneficiaries are knowledgeable about Medicare fraud in
        2001, as compared to 23 percent of beneficiaries in 1998. (See Appendix A for a
        comparison of baseline and other selected statistics.) Our analysis of the data shows that
        this increase can be attributed largely to the increase in information beneficiaries have
        received about Medicare fraud.

Twenty-four percent of beneficiaries are aware of efforts to reduce Medicare
fraud

        Approximately one-quarter of the beneficiaries who answered the question, “Are you
        aware of any efforts to reduce Medicare fraud?” said they were aware of some efforts to
        fight fraud. Beneficiaries are aware of both federal government and non-federal groups
        that are involved in efforts to reduce fraud. Beneficiaries mentioned the OIG, CMS,
        AARP, and the insurance companies that process their Medicare claims.

Informed beneficiaries and those enrolled in fee-for-service plans are more aware
of efforts to reduce fraud

        Medicare beneficiaries who receive information about Medicare fraud are more likely to
        be aware of efforts to reduce fraud. We categorized beneficiaries as having “received
        information” if they have attended any presentations, seen a public service announcement,
        heard of the “Who Pays? You Pay.” campaign, or asked about or looked for information
        on Medicare fraud. Approximately 37 percent of beneficiaries who recalled receiving
        information about Medicare fraud were aware of efforts to reduce it. In contrast, only 16
        percent of beneficiaries who did not recall receiving information were aware of efforts to
        reduce fraud. Informed beneficiaries are more aware of efforts to reduce Medicare fraud.

        Fee-for-service beneficiaries also are more aware of efforts to reduce Medicare fraud than
        managed care beneficiaries. Twenty-seven percent of fee-for-service beneficiaries are
        aware of efforts to reduce fraud compared to 15 percent of managed care beneficiaries.


        3
         In our previous report, Beneficiary Awareness of Medicare Fraud (OEI-12-97-00440),
knowledge was defined as having received information on how to recognize Medicare fraud, asked about or
looked for information about Medicare fraud, or being aware of a toll free hotline to report Medicare fraud.


Beneficiary Awareness of Fraud                                                              OEI-09-00-00590
                                                     5
Most beneficiaries are still not aware of the toll-free hotline to report Medicare
fraud

        Beneficiary awareness of the toll-free fraud reporting hotline has not increased. In 1998,
        approximately 86 percent of beneficiaries were not aware of the toll-free hotline for
        reporting Medicare fraud. In 2001, 85 percent of beneficiaries remain unaware of the
        hotline. In 1998, Congress mandated that the OIG hotline number appear on all Medicare
        claim statements. According to one hotline employee, although the number of calls to the
        hotline has increased since 1998, the number of beneficiary complaints about fraud
        actually has decreased. Hotline calls increased, because the OIG hotline number is
        included on the claim statements. Therefore, beneficiaries call with general inquiries, not
        just to report fraud.


RECEIVING INFORMATION ON MEDICARE FRAUD

Beneficiaries receive information about fraud from a variety of sources

        Approximately 45 percent of beneficiaries recalled receiving information about Medicare
        fraud. Beneficiaries mentioned receiving information from more than 15 different sources,
        including governmental organizations such as CMS and their Social Security office.
        Consumer advocacy groups, such as AARP, also were cited, as well as general media
        outlets, such as the radio and the Internet. One beneficiary said, “I get notices from lots of
        groups all the time...”




                                            Source: Office of Evaluation and Inspections, 2001




Beneficiary Awareness of Fraud                                                            OEI-09-00-00590
                                                  6
        Some beneficiaries also report receiving information about Medicare fraud from the“Who
        Pays? You Pay.” campaign. Medicare beneficiaries receive campaign information
        through written brochures and pamphlets, the Internet, public service announcements,
        seniors citizens groups, and AARP.

        Both Medicare beneficiaries and campaign partners report that television is a particularly
        effective method for providing information to beneficiaries about Medicare fraud. Of the
        beneficiaries who heard about the “Who Pays? You Pay.” campaign, 54 percent
        mentioned the television public service announcement as the source. Similarly, more than
        half of the campaign partners specifically mentioned the public service announcement as
        particularly successful in reaching beneficiaries. According to one partner, “The ‘Dripping
        Faucet’ announcement received lots of play and was pretty effective.”

Older beneficiaries and those who live in rural areas are less likely to report
receiving information concerning Medicare fraud

        Older beneficiaries are significantly less likely to recall receiving information about
        Medicare fraud than younger beneficiaries. Sixty percent of those beneficiaries under
        65 years of age report receiving information. In contrast, 48 percent of beneficiaries who
        are between the ages of 65 and 75 report receiving information. This figure decreases to
        40 percent for beneficiaries who are more than 75 years old.




                                       Source: Office of Evaluation and Inspections, 2001




Beneficiary Awareness of Fraud                                                              OEI-09-00-00590
                                                  7
        Beneficiaries living in urban areas are more likely to recall receiving information than
        beneficiaries who live in rural communities. Of beneficiaries who reside in urban4 areas,
        48 percent reported receiving information on fraud. In contrast, only 34 percent of
        beneficiaries who live in rural5 areas report receiving information on fraud.




                                                Source: Office of Evaluation and Inspections, 2001




ENCOUNTERING AND REPORTING POTENTIAL FRAUD
Beneficiaries still experience potential Medicare fraud

        Approximately 11 percent of Medicare beneficiaries suspect that they have encountered
        Medicare fraud. This proportion is smaller, though not significantly, than the 19 percent
        of beneficiaries who reported experiencing Medicare fraud in our 1998 survey.

        Beneficiaries experience potential Medicare fraud in many forms. Approximately
        6 percent of beneficiaries report that they were billed for the same services or equipment
        more than once, while approximately 5 percent report that they were billed for services or
        equipment they did not receive. Beneficiaries believe these were incidents of actual fraud
        and not errors resulting from honest mistakes. For example, one Medicare beneficiary
        stated that he continues to receive monthly bills for a hand brace made after an earlier
        surgery, while another beneficiary reported that he was billed for a pacemaker that he did
        not receive. After reviewing claim statements following a hospital discharge, one
        beneficiary realized that Medicare was billed for 2 extra days and medications that she did
        not receive. When she questioned the hospital, the response was, “You didn’t have to
        pay.”


        4
            Urban is categorized as 50 percent or more of the county is urban, according to census data.
        5
            Rural is categorized as 50 percent or less of the county is designated as rural by census data.

Beneficiary Awareness of Fraud                                                                  OEI-09-00-00590
                                                        8
        Beneficiaries also report that individuals other than their regular health care providers have
        offered them “free” medical equipment or services that would be billed to the Medicare
        program. Approximately 10 percent have been offered “free” medical services, tests, or
        equipment. Less than 1 percent of beneficiaries report that they actually have been sent
        equipment that was not ordered by their doctor.

Beneficiaries who receive information are more likely to know whom to contact if
they encounter Medicare fraud

        Only 14 percent of beneficiaries who recalled receiving information said they would not
        know whom to call if they encountered fraud. Comparatively, approximately 22 percent
        of beneficiaries who have not received information about fraud said they did not know
        whom to call if they encountered fraud in the Medicare program. Receiving information
        can increase beneficiary awareness of groups that might be able to help them with fraud.
        Some of the groups that beneficiaries report they would call include:

                                      Medicare Fraud Contacts

                                 Groups Mentioned                   Percent Mentioned
               Medicare/CMS                                              27.8 percent
               Social Security Office                                    10.3 percent
               Person or facility that may have committed the
                                                                         8.6 percent
               fraud
               Insurance company that processes the claims               8.4 percent
               Phone number on Medicare Notice                           4.2 percent
               OIG Hotline                                               2.5 percent
                                             Source: Office of Evaluation and Inspections, 2001



ATTITUDES AND BEHAVIORS
Despite receiving more information on fraud, key beneficiary attitudes have not
changed

        Beneficiaries are still not optimistic about efforts to eliminate Medicare fraud. In 1998,
        almost 17 percent of beneficiaries agreed with the statement, “It’s not worth the time and
        effort for me to report and pursue suspected health care fraud.” In 2001, approximately
        16 percent of beneficiaries agree with that statement. As one respondent mentioned, “I
        don't really follow my mom's health expenses too much because she is in a nursing home.
        I really just let them do it and assume that she is getting what she needs. Besides, how am
        I going to stop fraud?”

Beneficiary Awareness of Fraud                                                             OEI-09-00-00590
                                                    9
        Medicare beneficiaries still do not believe that Medicare fraud is easy to recognize. In
        1998, almost 50 percent of beneficiaries did not believe that Medicare fraud is easy to
        recognize. Some beneficiaries mentioned that confusing Explanation of Medicare Benefits
        Notices and Medicare Summary Notices make it difficult for them to determine what was
        billed to Medicare. According to one beneficiary: “...you can't figure out what they're
        billing for. I have no idea what the codes are; whether they're right or wrong, you'll never
        know. To catch fraud, you need to know what the codes are. The public's never going to
        know. I have to assume the best.”

Approximately half of beneficiaries who think they have encountered Medicare
fraud reported it

        Of those beneficiaries who think they have encountered fraud, approximately 48 percent

        reported the incident. Beneficiaries reported fraud in several ways. Most often,

        beneficiaries contacted the person or facility that submitted the Medicare claim for

        clarification (39 percent) or the Medicare program directly (35 percent). Beneficiaries

        also reported suspected fraud to the insurance company that processes their Medicare

        claims (13 percent) and to the Inspector General’s fraud hotline (9 percent).


        However, beneficiaries mentioned several reasons why they hesitate to report Medicare

        fraud: 


        C        They want to be sure it is fraud.

        C        Their doctor might get in trouble.

        C        They are concerned about the repercussions that would follow if proven wrong.

        C        They do not want to get anyone in trouble.


Most beneficiaries regularly read their claim statements

        In both 1998 and 2001, we found that most beneficiaries who receive Medicare claims
        statements report that they “always” read them. In 1998, approximately 74 percent of
        beneficiaries “always” read their claim statements. In 2001, approximately 80 percent of
        beneficiaries stated that they always read their claim statements. Approximately
        47 percent of beneficiaries have someone else, such as a family member, friend, or
        professional, also read their Medicare statements.

        Beneficiaries with poor vision, limited English skills, lower incomes, and who are
        pessimistic about fraud are less likely to read their claim statements. The frequency with
        which beneficiaries read their Medicare claim statements is directly associated with
        income, comfort with reading English, and visual ability. Eighty-two percent of
        beneficiaries who earn more than $10,000 per year “always” read their claim statements.
        In contrast, 67 percent of beneficiaries who earn less than $10,000 annually stated that
        they “always” read their claim statements. Sixty-six percent of beneficiaries who are less
        comfortable reading English report “always” reading their claim statements, whereas
        82 percent of beneficiaries who read English very well report “always” reading their claim
        statements. Eighty-three percent of respondents who see “very well” report

Beneficiary Awareness of Fraud                                                       OEI-09-00-00590
                                                 10
        “always” reading their claim statements; in contrast with 72 percent of beneficiaries who
        do not see as well. Finally, beneficiaries who agree with the statement “It’s not worth the
        time and effort for me to report and pursue suspected health care fraud” are also less likely
        to“always” read their claim statements.




Beneficiary Awareness of Fraud                                                        OEI-09-00-00590
                                                 11
                                 CONCLUSION


        Outreach activities which are designed to educate beneficiaries about Medicare fraud are
        meeting most of their goals. Beneficiaries in 2001 are more knowledgeable about
        Medicare fraud and are significantly more likely to receive information about fraud than
        they were 3 years ago. Further, beneficiaries are reporting suspected fraud using an
        approach consistent with the three-step process outlined in the “Who Pays? You
        Pay.”campaign.




Beneficiary Awareness of Fraud                                                      OEI-09-00-00590
                                                12
                                                                                       Appendix


                                     Baseline Statistics

         The following table compares the point estimates and 95 percent confidence intervals for
         selected baseline statistics from our 1998 and 2001 surveys. To mirror the methodology
         used in the 1998 report, in calculating the 2001 baseline statistics, we limited our analysis
         to include those beneficiaries who submitted at least one claim to a Medicare Part B
         carrier during 2000. Additionally, we excluded those beneficiaries who were enrolled in
         managed care during 2000. (n = 271).

                           1998 Survey Results          2001 Survey Results       Results of t Test
      Baseline                            95 %                       95%
      Statistic             Point                     Point                     Significant        P
                                      confidence                  confidence
                          Estimate                   Estimate                    at 95%?         value
                                        interval                   interval

 Percent of Medicare
 beneficiaries who
                            74%       69% - 79%          79%      75% - 84%          No          0.13
 always read their
 claim statements

 Percent of Medicare
 beneficiaries who
                            23%       19% - 28%          38%      32% - 44%         Yes          <0.01
 are knowledgeable
 about fraud

 Percent of Medicare
 beneficiaries who
 are not aware of any
                            88%       84% - 91%          72%      66% - 77%         Yes          <0.01
 agencies that work
 to reduce Medicare
 fraud

 Percent of
 beneficiaries who
 do not know there
                            86%       82% - 89%          85%      81% - 89%          No          0.87
 is a toll-free hotline
 to report Medicare
 fraud

 Of Medicare
 beneficiaries who
 say they may have
                            55%       40% - 69%          50%      31% - 69%          No          0.71
 encountered fraud,
 percent who
 reported it




Beneficiary Awareness of Fraud                                                            OEI-09-00-00590
                                                   13
                                                                                 Appendix B


                Confidence Intervals for Selected Statistics


        The following table show the point estimates and 95 percent confidence intervals for
        selected statistics in the order that they appear in the report.

                                                                                95 Percent
                                                                 Point
                                 Statistic                                      Confidence
                                                                Estimate
                                                                                 Interval
  Of beneficiaries who answered the question “Are you
  aware of any efforts to reduce Medicare Fraud,” percent         24%            20% - 27%
  who answered “yes”
  Of beneficiaries who received information on Medicare
  fraud, percent who answered “yes” to the question “Are          37%            31% - 44%
  you aware of any efforts to reduce Medicare Fraud?”
  Of fee-for-service beneficiaries, percent who are aware of
                                                                  27%            23% - 32%
  efforts to reduce Medicare fraud
  Of managed care beneficiaries, percent who are aware of
                                                                  15%            7% - 23%
  efforts to reduce Medicare fraud
  Of beneficiaries who did not receive information on
  Medicare fraud, percent who answered “yes” to the
                                                                  16%            11% - 20%
  question “Are you aware of any efforts to reduce
  Medicare Fraud?”
  Percent of beneficiaries who reported receiving
                                                                  45%            41% - 50%
  information about Medicare fraud
  Percent of beneficiaries who had heard of the “Who
  Pays? You Pay.” campaign on how to report Medicare               6%             4% - 9%
  fraud
  Of the beneficiaries who heard of the “Who Pays? You
  Pay.” campaign, percent who said they had also seen a           54%            37% - 72%
  television PSA about the campaign
  Percent of beneficiaries who suspect that they have
                                                                  11%            8% - 15%
  encountered Medicare fraud




Beneficiary Awareness of Fraud                                                      OEI-09-00-00590
                                                14
                                                                           Appendix B


                                                                          95 Percent
                                                                Point
                                 Statistic                                Confidence
                                                               Estimate
                                                                           Interval
  Percent of beneficiaries who report that Medicare was
                                                                 6%        4% - 8%
  billed twice for the same goods or services
  Percent of beneficiaries who report that Medicare was
                                                                 5%        3% - 7%
  billed for services or equipment they did not receive
  Percent of beneficiaries who were offered free medical
                                                                 10%       8% - 13%
  services, tests, or equipment
  Percent of beneficiaries who report that they were sent or
                                                                0.2%      .04% -1.02%
  delivered equipment that was not ordered by their doctor
  Of beneficiaries who received information about
  Medicare fraud, percent who answered “don’t know” to
                                                                 14%      10% - 18%
  the question “Who would you contact if you experienced
  fraud while in the Medicare program?”
  Of beneficiaries who did not receive information about
  Medicare fraud, percent who answered “don’t know” to
                                                                 22%      17% - 27%
  the question “Who would you contact if you experienced
  fraud while in the Medicare program?”
  Percent of beneficiaries who agreed with the statement
  “It’s not worth the time and effort for me to report and       16%      11% - 20%
  pursue suspected health care fraud.”
  Percent of beneficiaries who disagree with the statement
                                                                 49%      43% - 55%
  “Medicare fraud is easy to recognize.”
  Of beneficiaries who encountered suspected Medicare
                                                                 48%      34% - 62%
  fraud, percent who reported the incident
  Percent of beneficiaries who report that they “always”
                                                                 80%       76%-84%
  read their Medicare claim statements




Beneficiary Awareness of Fraud                                               OEI-09-00-00590
                                                15
                                                                        Appendix B


                                                                        95 Percent
                                                              Point
                                 Statistic                              Confidence
                                                             Estimate
                                                                         Interval
  Percent of beneficiaries who report that someone else
                                                               47%      42%-52%
  reads their Medicare claim statements
  Of beneficiaries earning less than $10,000, percent who
                                                               67%      53%-80%
  report “always” reading their Medicare claim statements*
  Of beneficiaries earning more than $10,000, percent who
                                                               82%      77% - 87%
  report “always” reading their claim statements*
  Of beneficiaries who read English “very well,” percent
  who report that they “always” read their Medicare claim      82%      78% - 87%
  statements*
  Of beneficiaries who do not read English “very well,”
  percent who report that they “always” read their             66%      54% - 78%
  Medicare claim statements*
  Of beneficiaries who see “very well,” percent who report
                                                               83%      78% - 88%
  that they “always” read their Medicare claim statements*
  Of beneficiaries who do not see “very well,” percent who
  report that they “always” read their Medicare claim          72%      65% - 80%
  statements*
  Of beneficiaries who agree with statement, “It’s not
  worth the time and effort for me to report and pursue
                                                               67%      55% - 79%
  suspected health care fraud,” percent who “always” read
  their Medicare claim statements
  Of beneficiaries who disagree with statement, “It’s not
  worth the time and effort for me to report and pursue
                                                               83%      79% - 87%
  suspected health care fraud,” percent who “always” read
  their Medicare claim statements


* Of beneficiaries who answered the question




Beneficiary Awareness of Fraud                                            OEI-09-00-00590
                                               16
                                               16

                                                                                    Appendix C


        Analysis of Respondents Versus Non-Respondents 


        We compared survey respondents with survey non-respondents for five variables:
        (1) beneficiary age at the time of the interview, (2) race of the beneficiary, (3) gender of
        the beneficiary, (4) median income of local community, and (5) urban-rural residence. We
        found that respondents are not different from non-respondents by gender or the urban-
        rural character of the community. However, respondents are different from
        non-respondents by age, race, and median area income. To determine the effect of the
        relationship between response rate and age, race, and median income, we conducted an
        additional analysis of the baseline statistics listed in Appendix A. In this analysis, we
        assumed that non-respondents would have answered the same as respondents within the
        same age, race, or median area income categories. We then recalculated the baseline
        statistics. We found that the results were all within the 95 percent confidence intervals of
        the original estimates. Therefore, we did not find any statistical evidence of age, race, or
        median income bias because of non-response.

Analysis by Age

        Respondents differed significantly from non-respondents by age. The under-65 and
        85-and-older groups are under represented among the respondents, whereas the 75 to
        84 age group is over represented.

                       Respondents versus Non-Respondents by Age Group

                                 Age          Respondents     Non-Respondents
                        Under 65 years            10.9%            16.0%
                         65 to 74 years           41.8%            38.6%
                         75 to 84 years           37.9%            30.9%
                      85 years and older          9.4%             14.5%

        The chi-square for respondents versus non-respondents by age group is statistically
        significant:

        chi-square = 19.533               degrees of freedom = 3             probability = .0002




Beneficiary Awareness of Fraud                                                        OEI-09-00-00590
                                                   17
                                                                                    Appendix C


Analysis by Race

        Respondents differed significantly from non-respondents by race. As shown in the table
        below, beneficiaries who were white were over-represented among respondents.

                           Respondents versus Non-Respondents by Race

                            Race           Respondents        Non-Respondents
                           White              89.3%                 80.7%
                           Other              10.7%                 19.3%

        Chi-square for respondents versus non-respondents by race is statistically significant:

        chi-square = 19.0535             degrees of freedom = 1       probability < .0001

Analysis by Median Area Income

        Respondents differed significantly from non-respondents in the median income of the zip
        code of residence. As shown in the table, respondents lived within zip codes with a higher
        median income than non-respondents.

                    Respondents versus Non-Respondents by Median Income

                        Median Income           Respondents       Non-Respondents
                   Median zip code income          $31,470            $30,049
                   (standard error)               ($509.06)          ($390.64)

        T-test for respondents versus non-respondents by median zip code income is statistically
        significant at the 95 percent confidence level:

        t= -2.21                   degrees of freedom =1364           probability ># t# = .0270




Beneficiary Awareness of Fraud                                                        OEI-09-00-00590
                                                   18
